No. __________
IN THE
SUPREME COURT OF THE UNITED STATES

DEMARIO DESHAWN SIMPSON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

APPENDIX

Scott Graham
Counsel of Record for Petitioner
SCOTT GRAHAM PLLC
1911 West Centre Avenue, Suite C
Portage, Michigan 49024-5399
Telephone: 269.327.0585
E-mail: sgraham@scottgrahampllc.com

INDEX TO APPENDICES

APPENDIX A

OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT (02/17/21) ................... A-1

APPENDIX B

JUDGMENT OF THE UNITED STATES DISTRICT
COURT FOR THE WESTERN DISTRICT OF
MICHIGAN, SOUTHERN DIVISION (02/19/20) ................... A-19

APPENDIX C

TRANSCRIPT – FINAL PRETRIAL CONFERENCE
(10/10/19) .................................................................................. A-26

i

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 1

(2 of 19)

NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0093n.06
Case No. 20-1162
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
DEMARIO DESHAWN SIMPSON,
Defendant-Appellant.

Feb 17, 2021
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
MICHIGAN

BEFORE: SUHRHEINRICH, CLAY, and DONALD, Circuit Judges.
BERNICE BOUIE DONALD, Circuit Judge. Demario Deshawn Simpson challenges
several aspects of his trial and sentencing. Simpson alleges that the district court erred by not
accepting his guilty plea, and by allowing an expert witness to testify as to drug trafficking at his
trial. Simpson also argues that there was insufficient evidence for the jury to find him guilty of
his firearm convictions. Finally, Simpson contends that his sentence was both procedurally and
substantively unreasonable. For the reasons set forth below, we AFFIRM the judgment of the district
court.

I.
On the night of May 14, 2019, police officers with the Kalamazoo Department of Public
Safety (“KDPS”) observed a group of individuals congregating close to Krom Street in
Kalamazoo, Michigan.

The KDPS officers, who were surveilling that area in response to

A-1

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 2

Case No. 20-1162, United States v. Simpson
numerous reports from earlier in the week of shots being fired, also noticed that one of those
individuals, Travis Farris, was in possession of a large handgun. Soon after the police began
monitoring the activity near Krom Street, Farris, along with Cornell Gordon, Robert Love, and
Simpson, entered a maroon Dodge Charger and drove away from the scene. Believing that the
firearm possession was sufficient probable cause for an arrest, the officers followed the vehicle
and watched the men drive a few blocks before parking on Bush Street. As the police were
approaching the Dodge Charger, Sergeant Justin Wonders thought he saw Farris exit the vehicle—
a suspicion that he confirmed when he drove past the vehicle a second time and discovered that
Farris was no longer in the car. After realizing that Farris departed from the vehicle, Sergeant
Wonders picked up Officer Dan Boglitsch and, while driving, witnessed at least three figures in a
nearby vacant field who appeared to be using their cell phones to search for something.
Sergeant Wonders, along with Officers Boglitsch and Greg Day, then proceeded to pursue
the individuals in the field on foot. Once the police officers entered the vacant lot, two men—
Gordon and Love—took off running. Both Gordon1 and Love were eventually apprehended blocks
away from the empty field and arrested by Officers Chad VanderKlok and Alex Marshall,
respectively. As it would later be determined, there were actually four people in the empty field,
and the other two individuals—Farris and Simpson—did not flee from the officers. Upon reaching
the vacant lot, Sergeant Wonders encountered Farris, drew his gun, and instructed Farris not to
move. Farris complied with Sergeant Wonders’ request and was placed in handcuffs and under
arrest. Following Farris’ arrest, the police searched him and found $650 as well as a small bag
containing 9.01 grams of heroin on his person. A subsequent canine search that transpired within

1

The police were able to obtain footage from a dashboard camera that shows Gordon removing a handgun
from his person and tossing it towards a parked vehicle. The police would later locate this firearm following Gordon’s
arrest.

-2-

A-2

(3 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 3

Case No. 20-1162, United States v. Simpson
close proximity to where Farris was arrested assisted the officers with recovering a Diamondback
9mm semi-automatic pistol, which Officer Boglitsch testified he saw Farris with (through imagestabilizing binoculars) when he was near Krom Street on May 14.
Officer Day was responsible for arresting Simpson. Simpson initially tried to escape, but
tripped, giving Officer Day the opportunity to detain and arrest him. Immediately after being
apprehended, Simpson said to Officer Day, “I was just looking for my cell phone.” Following the
detainment, Simpson freely consented to Officer Day searching him. During the pat down, Officer
Day felt Simpson clench his buttocks—a typical tactic used to conceal narcotics—and knew from
previous experience that Simpson was likely hiding drugs. Officer Day gave Simpson the
opportunity to remove the drugs from his buttocks on his own; Simpson obliged, and Officer Day
recovered a sandwich bag with 8.52 grams of heroin. Simpson even told the officers, “You caught
me red handed with this dope.” In addition to the drugs, Officer Day found a cell phone on
Simpson’s person. Simpson voluntarily allowed Officer Day to search his cell phone (and even
gave him his passcode); however, the officer did not find any incriminating evidence on this
device.
After Simpson was arrested, the police found two other pieces of evidence near a tree, close
to where Simpson fell while trying to flee. The first piece of evidence was another cell phone.
Even though Simpson had previously revealed to Officer Day that he was looking for his cell
phone, Simpson denied that this second cell phone was his. Simpson ultimately confessed to
Officer Day that he owned the second cell phone and gave Officer Day permission (and again, his
passcode) to search his other phone. Officer Day testified that Simpson’s second device had
several messages indicating that he regularly engaged in drug-related activities. The second piece
of evidence obtained by the police was a firearm—a Taurus, 9mm semi-automatic pistol. This

-3-

A-3

(4 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 4

Case No. 20-1162, United States v. Simpson
gun was located approximately five feet from Simpson’s second cell phone. The police did not
witness Simpson possess the gun, and neither his DNA nor his fingerprints were on the weapon,
but body camera footage captured Simpson, moments before his arrest, trying to escape from the
police, and with his right hand towards the ground by the tree.
Based on these events, the government filed an eight-count indictment, charging Farris,
Gordon, and Simpson with committing various firearm and drug crimes. Simpson was charged
with committing three crimes: possession with intent to distribute a controlled substance, in
violation of 21 U.S.C. §§ 841(a) and 841(b)(1)(C) (count two); felon in possession of a firearm, in
violation of 18 U.S.C. § 922(g)(1) (count four); and possession of a firearm in furtherance of drug
trafficking, in violation of 18 U.S.C. § 924(c)(1)(A)(i) (count seven). Although Farris and Gordon
pleaded guilty, Simpson proceeded to trial.
Prior to his trial, Simpson attempted to plead guilty to count two of the indictment. The
district court, however, denied Simpson’s request. The district court reasoned that “the proofs
regarding drug distribution, drug possession, and the quantities and the place found and all the rest
is germane to the jury’s . . . decision on whether or not if they find Mr. Simpson possessed a
firearm [and] whether he was possessing it in furtherance of the drug-trafficking crime.” The
district court further noted, “we’re not talking about a case where the charge [Simpson] wants to
plead to is unrelated. In fact, I think it’s, you know, intertwined completely with what’s still got
to be tried.” As a result of the district court’s decision, Simpson faced all three charges at trial.
Simpson filed a motion in limine before trial, seeking to prevent one of the government’s
expert witnesses, Agent Gregory Pond, from testifying. According to Simpson, Agent Pond was
going to testify as a “drug-trafficking expert,” discuss code words and lingo related to the drug
trade, and explain that drug dealers protect their drugs with firearms. Simpson argued that Agent

-4-

A-4

(5 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 5

Case No. 20-1162, United States v. Simpson
Pond did not qualify as an expert and claimed that the jury would not benefit from hearing Agent
Pond’s testimony. The district court denied Simpson’s motion, reasoning that Agent Pond’s
background made him a qualified expert witness, and that due to the circumstantial evidence
pertaining to the firearm charges, Agent Pond’s statements might be helpful to the jury.
At the conclusion of his trial, Simpson was found guilty of all three counts. Simpson
subsequently filed a Rule 29 motion for acquittal and a Rule 33 motion for a new trial. The district
court denied these motions. With those motions resolved, and the case in its sentencing phase, the
probation office filed its presentence report. The district court later noticed that the presentence
report had an error and corrected it by way of issuing an order to the parties. The probation office
accurately grouped counts two and four (and excluded count seven), but mistakenly used the score
for the controlled substance conviction as the controlling score for that group. The district court
determined that though the base level for count four was 14 and the base level for count two was
12, the probation office should have used the score of 14 for that group, acknowledging that “the
highest guideline score normally controls the group.” All parties agreed with the district court’s
resolution.
During sentencing, Simpson’s counsel asked the district court to consider a variance,
stating “I think instead of making an argument that he is specifically entitled to a two-level
reduction based upon his attempt to plead guilty, I think I would fold that into an argument
regarding a potential variance in the case.” To which the district court responded, “Right. I mean,
if he . . . went to trial on just the two firearms charges we would be in exactly the same place on
guidelines. Not a good argument for acceptance.” Defense counsel agreed with the district court’s
assessment, then expressed that Simpson had issues with alcohol, and contended that the penalty
for the § 924(c) conviction constituted severe punishment. The district court then considered the

-5-

A-5

(6 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 6

Case No. 20-1162, United States v. Simpson
§ 3553(a) factors, mentioning that a Guidelines sentence would cause Simpson to face more time
in prison than he had experienced before, and indicated that, while incarcerated, Simpson would
finally be able to focus on his alcohol addiction problem. The district court also stated:
I frankly don’t see the willingness that Mr. Simpson had to plead to the drug charges
[as] a heavy factor bearing on variance, but it is at least a factor. It does tell me that
Mr. Simpson was willing to take responsibility for what he felt he unequivocally
had to take responsibility for. But since the heart of what the trial was all about,
and the heart of what Mr. Simpson was not willing to take responsibility for was
the firearm related activity, which elevated the overall seriousness and risks, if that
alone were the basis for variance here I probably wouldn’t do it, but in the overall
mix, I think it adds some weight to the other factors that I described.
Considering all of the aforementioned factors, the district court sentenced Simpson to 24 months’
imprisonment on counts two and four (to be served concurrently),2 and 60 months’ imprisonment
on count seven. Simpson timely appealed, seeking for this Court to consider challenges related to
his trial and sentence.
II.
A. Partial Guilty Plea
We review a district court’s decision to reject a guilty plea for an abuse of discretion.
United States v. Doggart, 906 F.3d 506, 509 (6th Cir. 2018). A criminal defendant does not have
an “absolute right to have a guilty plea accepted.” Santobello v. New York, 404 U.S. 257, 262
(1971); United States v. Cota-Luna, 891 F.3d 639, 647 (6th Cir. 2018). Courts that decide to reject
a guilty plea must exercise “sound judicial discretion” and “articulate a sound reason for rejecting
[the] plea.” Santobello, 404 U.S. at 262; United States v. Moore, 916 F.2d 1131, 1136 (6th Cir.
1990) (citation omitted).

Based on the 14 offense level for counts two and four and Simpson’s criminal history of VI, Simpson’s
Guidelines range for counts two and four was 37 to 46 months’ imprisonment.
2

-6-

A-6

(7 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 7

Case No. 20-1162, United States v. Simpson
Simpson argues that the district court erred in denying his request to plead guilty to count
two of the indictment. Specifically, Simpson contends that the district court’s rejection of his
request allowed the government to have the opportunity to present “highly prejudicial evidence”
that would have been inadmissible had the court accepted Simpson’s partial plea. When the district
court denied Simpson’s partial plea, it acknowledged that regardless of whether Simpson plead
guilty to count two or not, the same evidence pertaining to the drug offense would have been
admissible at trial since the government was required to prove that Simpson engaged in drug
trafficking for a conviction of count seven. See 18 U.S.C. § 924(c)(1)(A)(i). Moreover, the district
court explained that it was likely to Simpson’s benefit that he be tried on all three charges because
that would eliminate the possibility of Simpson making unfavorable admissions under oath during
his plea colloquy, which would presumptively be considered admissible evidence. The district
court additionally noted that Simpson could have stipulated during his opening statement that he
was not contesting his guilt as it pertained to count two. In reaching its determination, the district
court did not act in an arbitrary manner, see Moore, 916 F.2d at 1136, because it offered Simpson
with not only practical, but sound reasons supporting its decision. See Cota-Luna, 891 F.3d at 648
(ruling that the district court abused its discretion by arbitrarily rejecting defendants’ plea
agreement based on its belief that the sentence agreed upon by the defendants and the government
was too lenient). Consequently, the district court did not abuse its discretion by denying Simpson’s
request to accept his partial plea.
B. Admission of Expert Testimony
“This Court reviews for an abuse of discretion whether the district court properly admitted
or excluded expert testimony under Federal Rule of Evidence 702.” United States v. Amawi,
695 F.3d 457, 478 (6th Cir. 2012). Federal Rule of Evidence 702 provides:

-7-

A-7

(8 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 8

Case No. 20-1162, United States v. Simpson
A witness who is qualified as an expert by knowledge, skill, experience, training,
or education may testify in the form of an opinion or otherwise if:
(a) the expert’s scientific, technical, or other specialized knowledge will help the
trier of fact to understand the evidence or to determine a fact in issue;
(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles and methods; and
(d) the expert has reliably applied the principles and methods to the facts of the
case.
Rule 702 affords the district court “considerable leeway in deciding in a particular case how to go
about determining whether particular expert testimony is reliable.” Kumho Tire Co. v. Carmichael,
526 U.S. 137, 152 (1999). We have held that the Rule 702 analysis should be performed in three
“First, the witness must be qualified by knowledge, skill, experience, training, or

steps.

education.” In re Scrap Metal Antitrust Litig., 527 F.3d 517, 529 (6th Cir. 2008) (quoting Fed. R.
Evid. 702) (internal quotation marks omitted). “Second, the testimony must be relevant, meaning
that it will assist the trier of fact to understand the evidence or to determine a fact in issue.” Id.
(quoting Fed. R. Evid. 702) (internal quotation marks omitted). “Third, the testimony must be
reliable.” Id. (quoting Fed. R. Evid. 702).
For several reasons, Simpson asserts that the district court mistakenly allowed Agent Pond
to testify as an expert witness. First, Simpson contends that Agent Pond was not qualified to be
an expert. The district court found Agent Pond was qualified considering that he worked on
criminal investigations as an agent with the Drug Enforcement Administration (“DEA”) for 14
years. Before trial, the government pointed out that Agent Pond was involved in numerous
investigations while working for the DEA (in Michigan, Missouri, and Afghanistan),3 and attended
multiple drug investigation training courses, which gave him the ability to candidly testify about

Contrary to Simpson’s claim that Agent Pond’s credentials suggest that he primarily worked overseas, in
addition to working in Afghanistan, Agent Pond also gained relevant experience in the United States.
3

-8-

A-8

(9 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 9

Case No. 20-1162, United States v. Simpson
how drug dealers use their firearms to protect their drugs. Furthermore, Agent Pond testified that
he had been involved in hundreds of drug investigations, had five years of experience with local
law enforcement before he became a DEA agent, and was deemed qualified to testify in another
federal court. Based on his experience, the district court did not abuse its discretion in finding that
Agent Pond was qualified as an expert. See United States v. Lopez-Medina, 461 F.3d 724, 743
(6th Cir. 2006) (finding a DEA agent with six years of relevant experience investigating drug
crimes to be qualified as an expert witness).
Second, Simpson argues that Agent Pond’s testimony was irrelevant because it would have
been obvious to the jury that drug dealers carry firearms. Simpson also contends that it was
unnecessary for Agent Pond to define the term “dope sick,” which refers to how drug users feel
after using heroin, since there are many resources available that explain what this term means. The
district court ruled that because the firearm at issue was not found on Simpson’s person, the
government was going to have to present circumstantial evidence to prove that the gun found on
the ground near Simpson in the vacant lot belonged to him. The district court decided that Agent
Pond’s testimony would assist the jury. Throughout his testimony, Agent Pond opined, inter alia,
that drug dealers normally possess firearms for protection and intimidation. We have permitted
such testimony previously. See United States v. Swafford, 385 F.3d 1026, 1030 (6th Cir. 2004)
(holding that the district court did not plainly err by allowing an agent to testify that drug dealers
carry firearms for intimidation and protection); United States v. Ham, 628 F.3d 801, 804–05 (6th
Cir. 2011) (same). Our precedent therefore compels us to hold that the district court did not abuse
its discretion in finding that Agent Pond’s testimony was relevant. With regard to Agent Pond’s
comments about the term “dope sick,” though his statements might not have been particularly
germane to Simpson’s charges, prior to Agent Pond’s testimony, the court instructed the jury to

-9-

A-9

(10 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 10

Case No. 20-1162, United States v. Simpson
discretionarily “decide whether to accept some, all, or none of what Mr. Pond [said]” since Agent
Pond was only testifying as a fact witness. Nevertheless, Simpson has not sufficiently shown that
such testimony affected his substantial rights.4 See Fed. R. Crim. P. 52(a); see, e.g., United States
v. Robinson, 872 F.3d 760, 780 (6th Cir. 2017).
Third, Simpson contends that the testimony presented by Agent Pond was unreliable
because Agent Pond allegedly did not present to the jury a proven methodology demonstrating that
his testimony that drug dealers carry weapons was well founded. In support of his argument,
Simpson cites to United States v. Freeman, 730 F.3d 590 (6th Cir. 2013). In Freeman, we held
that the testimony of an agent, who was testifying as a lay witness based on his personal knowledge
under Federal Rule of Evidence 701, was inadmissible because the agent did not explain the basis
of his interpretations of phone conversations, and therefore the government failed to properly lay
a foundation under Rule 701. Id. at 596. Only after the Court made this finding did we assess
whether the agent might have qualified as an expert witness. Id. at 599. The Court then stated that
due to the fact that it was unclear what “methodology” or “guiding principles” he relied on to form
his opinions, the district court likely would not have allowed the agent to testify as an expert. Id.
at 600 (quoting United States v. Johnson, 617 F.3d 286, 294 (4th Cir. 2010)). In the instant case,
Agent Pond based his testimony on his first-hand experiences deriving from 14 years as a DEA
agent, which, as we mentioned above, our Court has deemed constitutes reliable evidence. See,
e.g., Swafford, 385 F.3d at 1030. Accordingly, the district court did not abuse its discretion as it
pertains to the reliability of Agent Pond’s testimony.

Simpson claims that the portions of Agent Pond’s testimony regarding the connection between drug dealers
and firearms were prejudicial because Agent Pond “essentially told the jury that Mr. Simpson carried the gun.”
Simpson, however, mischaracterizes Agent Pond’s testimony. Agent Pond only testified that drug traffickers in
general—as opposed to Simpson specifically—are known to possess guns for protection and intimidation purposes.
4

- 10 -

A-10

(11 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 11

Case No. 20-1162, United States v. Simpson
C. Sufficiency of the Evidence
“We review de novo a challenge to the sufficiency of the evidence supporting a criminal
conviction.” United States v. Carson, 560 F.3d 566, 579 (6th Cir. 2009). Defendants “claiming
insufficiency of the evidence bear a heavy burden.” United States v. Maliszewski, 161 F.3d 992,
1005 (6th Cir. 1998). We evaluate such claims “in the light most favorable to the government and
draw all inferences in the government’s favor in order to determine whether any rational trier of
fact could have found the elements of the offense beyond a reasonable doubt.” Id. (citation
omitted). “In making this determination, however, we may not reweigh the evidence, reevaluate
the credibility of witnesses, or substitute our judgment for that of the jury.” United States v.
Martinez, 430 F.3d 317, 330 (6th Cir. 2005). Additionally, “[w]e draw all available inferences
and resolve all issues of credibility in favor of the jury’s verdict, and it is not necessary for us to
exclude every reasonable hypothesis but guilt.” United States v. Avery, 128 F.3d 966, 971
(6th Cir. 1997).
Simpson contends that there was an insufficient amount of evidence presented for a jury to
convict him of his firearm-related charges. Simpson alleges that he neither possessed the firearm
(Taurus, 9mm semi-automatic pistol )—an element of counts four and seven, see 18 U.S.C.
§§ 922(g)(1), 924(c)—nor possessed the firearm in furtherance of drug trafficking, see § 924(c).
In response, the government argues that the circumstantial evidence presented in the case was
sufficient for the jury to find Simpson guilty of both charges.
1. Count Four
To prove that Simpson violated 18 U.S.C. § 922(g)(1), the government was required to
show that: (1) Simpson knew he had a prior felony conviction; (2) Simpson knowingly possessed
the firearm; and (3) the possession was in or affected interstate commerce. See United States v.

- 11 -

A-11

(12 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 12

Case No. 20-1162, United States v. Simpson
Davis, 577 F.3d 660, 671 (6th Cir. 2009). Simpson only challenges whether he knowingly
possessed the firearm at issue, so we evaluate the facts accordingly. We have said previously that
under § 922(g)(1), a defendant “may be convicted based on either actual or constructive possession
of a firearm.” United States v. Grubbs, 506 F.3d 434, 439 (6th Cir. 2007). “Both actual possession
and constructive possession may be proved by direct or circumstantial evidence.” United States
v. Craven, 478 F.2d 1329, 1333 (6th Cir. 1973), abrogated on other grounds by Scarborough v.
United States, 431 U.S. 563 (1977).
Actual possession exists when a defendant “knowingly has direct physical control over a
thing at a given time.” United States v. Bailey, 553 F.3d 940, 944 (6th Cir. 2009) (quoting United
States v. Frederick, 406 F.3d 754, 765 (6th Cir. 2005)). Additionally, there must be some evidence
that the defendant had “immediate possession or control” of the firearm at issue. Grubbs, 506 F.3d
at 439 (quotation omitted). Here, there was no actual possession because Simpson was not clearly
holding the gun when the police apprehended him, and he was not seen with the firearm prior to
his arrest. See United States v. Workman, 755 F. App’x 533, 537 (6th Cir. 2018) (citing
Bailey, 553 F.3d at 944).
The constructive possession of a firearm requires that a person “knowingly has the power
and the intention at a given time to exercise dominion and control over an object, either directly or
through others.” Craven, 478 F.2d at 1333.

“[P]resence alone cannot show the requisite

knowledge, power, or intention to exercise control over the unregistered firearms.”
Bailey, 553 F.3d at 945 (quoting United States v. Birmley, 529 F.2d 103, 107–08 (6th Cir. 1976)).
“[O]ther incriminating evidence, coupled with presence is needed to tip the scale in favor of
sufficiency.” Grubbs, 506 F.3d at 439 (quoting United States v. Arnold, 486 F.3d 177, 183 (6th
Cir. 2007) (en banc)) (internal quotation marks omitted). As we have noted in the past, it is critical

- 12 -

A-12

(13 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 13

Case No. 20-1162, United States v. Simpson
that any theories of constructive possession include facts demonstrating that a defendant had the
“specific intent” to possess the firearm.

Bailey, 553 F.3d at 945 (citing United States v.

Newsom, 452 F.3d 593, 606 (6th Cir. 2006)).
Here, this is a close case because there is evidence supporting a finding both that Simpson
did and did not constructively possess the firearm. However, it cannot be said that no rational
trier of fact could have found the elements of § 922(g)(1) beyond a reasonable doubt. See
Maliszewski, 161 F.3d at 1005. On the one hand, as the district court admitted, “[t]here’s no
confession. There was no eyewitness. There were no fingerprints or other evidence linking
Mr. Simpson biologically to the firearm.” Another important detail is that, in addition to Simpson,
there were three other men in the vacant lot where the gun in question was discovered who each
were searching for an unidentified object; therefore, the gun could have logically belonged to any
of those individuals.
On the other hand, as the government asserts, the gun was found only a couple of feet from
where Simpson was arrested. But, as we have previously explained, merely being near a firearm
does not definitively prove constructive possession. See Bailey, 553 F.3d at 947; but see Grubbs,
506 F.3d at 440 (“When the defendant is found in close proximity to a firearm at the time of the
arrest, the inference of dominion and control is particularly strong, and thus the incriminating
evidence needed to corroborate the conviction is less.”). While true, there is other supporting
evidence indicating that the firearm discovered by the police was constructively possessed by
Simpson. Simpson’s second cell phone was positioned approximately five feet from the weapon.
Simpson asserts that though his second cell phone was next to the gun, there were no pictures of
him on his phone with the firearm (or on any of his social media accounts), but a rational trier of
fact could have overlooked the absence of photographic evidence, considering that Simpson and

- 13 -

A-13

(14 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 14

Case No. 20-1162, United States v. Simpson
his cell phone were close to the weapon. Further, while the video footage of Simpson fleeing and
potentially reaching for the weapon is inconclusive at best, it could have also led the jury to believe
that Simpson constructively possessed the weapon.5 Simpson is right that there were other men
seen in the vacant lot not long before he was apprehended; however, the fact that he was the only
one of those men close to the gun when the police arrived—not to mention that two of those men
were arrested with firearms on their person6—casts doubt on whether anyone besides Simpson
constructively possessed the gun.
Accordingly, when viewing the evidence in the light most favorable to the government, a
rational trier of fact could have determined that Simpson constructively possessed the firearm. The
gun was located next to Simpson’s second cell phone, which Simpson admittedly used for drugdealing purposes. Simpson also had drugs on his person when he was arrested. When those two
facts are considered along with Agent Pond’s testimony that drug dealers possess weapons for
their protection and intimidation, the jury could have rationally concluded that Simpson
knowingly had the power and intention to exercise dominion and control over the firearm beyond
a reasonable doubt.7 Craven, 478 F.2d at 1333. Again, the evidence does not directly confirm that
Simpson constructively possessed the firearm, but, given the very high bar that Simpson has to

5

Simpson cites to Bailey for the proposition that evidence of an attempt to evade arrest hardly proves that he
constructively possessed the firearm. 553 F.3d at 946. This assertion ignores the other evidence mentioned above
that might have caused the jury to convict Simpson of § 922(g)(1).
6

We note that we are not in any way expressing that one of the other three men in the field could not have
possessed multiple guns, but we only point this fact out to demonstrate that it could have influenced the jury’s decisionmaking process.
7

Simpson asserts that Bailey constitutes precedent that forces the Court to reach a different conclusion, but
we are not convinced. In Bailey, the defendant was accused of possessing a firearm that was found underneath the
seat of a car he borrowed. 553 F.3d at 946. But there, the defendant testified at trial that he was not aware the gun
was inside the car, and that he did not have a gun on his person when he entered the car. There was also no evidence
showing that he constructively possessed the firearm besides the fact that he happened to be in a vehicle where a gun
was located. Id. Bailey is factually distinguishable from our case because here, the gun was found five feet away from
Simpson and his second cell phone, and there is no evidence establishing that Simpson did not have a weapon on his
person when he entered the open field. Although Bailey might be similar to the present case in some respects, it does
not require the Court to conclude that Simpson could not have constructively possessed the firearm.

- 14 -

A-14

(15 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 15

Case No. 20-1162, United States v. Simpson
overcome for a sufficiency of the evidence challenge, we cannot find that there was insufficient
evidence for a § 922(g)(1) conviction.
2. Count Seven
As it pertains to the conduct Simpson was accused of committing, the government was
required to prove for a conviction of § 924(c) that Simpson “possesse[d] a firearm,” “in furtherance
of” a “drug trafficking crime.” 18 U.S.C. § 924(c)(1)(A). Because we have established that
Simpson constructively possessed the firearm, the only issue left is whether Simpson possessed
the firearm “in furtherance of” a “drug trafficking crime.” Id. In these instances, we typically turn
to the Mackey factors to examine whether a defendant possessed a firearm in furtherance of drug
trafficking. See United States v. Mackey, 265 F.3d 457, 462 (6th Cir. 2001). These (nonexhaustive) factors include an assessment of: (1) whether the firearm was “strategically located so
that it is quickly and easily available for use”; (2) “whether the gun was loaded”; (3) “the legality
of its possession”; (4) “the type of drug activity conducted”; and (5) “the time and circumstances
under which the firearm was found.” Id. We have also made it clear that there must be “a specific
nexus between the gun and the crime charged.” Id. With those factors in mind, we turn to the
facts of the present case.
When all of the Mackey factors are taken under consideration, there was enough evidence
for a rational jury to have convicted Simpson of § 924(c). The gun was located within arm’s reach
of Simpson, giving him easy access to use the weapon. The gun was loaded. The gun was not
legally possessed by Simpson. There was testimony at trial explaining that the heroin on
Simpson’s person was worth thousands of dollars, and he admitted that the drugs were his and that
he sold drugs. The gun was recovered next to him and the heroin that he possessed, as well as his
cell phone, which he used for drug-dealing transactions. Most importantly, all of these details are

- 15 -

A-15

(16 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 16

Case No. 20-1162, United States v. Simpson
indicative of a specific nexus between Simpson constructively possessing the firearm and Simpson
constructively possessing the firearm to “aid[] or further[] a . . . drug-trafficking crime.”8 United
States v. Maya, 966 F.3d 493, 500 (6th Cir. 2020). Therefore, the evidence was sufficient for a
§ 924(c) conviction.
D. Procedural and Substantive Reasonableness
A criminal sentence must be both procedurally and substantively reasonable. United States
v. Morgan, 687 F.3d 688, 693 (6th Cir. 2012). The Court must assess the merits of a procedural
reasonableness challenge before examining a substantive reasonableness claim. Gall v. United
States, 552 U.S. 38, 51 (2007). When reviewing a district court’s sentencing determination, the
Court examines its reasonableness under a “deferential abuse-of-discretion standard.” United
States v. Bolds, 511 F.3d 568, 578 (6th Cir. 2007) (quoting Gall, 552 U.S. at 41).
Regarding procedural reasonableness, a district court abuses its discretion if it “commit[s]
[a] significant procedural error, such as failing to calculate (or improperly calculating) the
Guidelines range, treating the Guidelines as mandatory, failing to consider the § 3553(a) factors,
selecting a sentence based on clearly erroneous facts, or failing to adequately explain the chosen
sentence—including an explanation for any deviation from the Guidelines range.” Gall, 552 U.S.
at 51.

8

Simpson cites to United States v. Ray, 803 F.3d 244 (6th Cir. 2015) in support of an alternative holding. In
Ray, we said that the defendant could not have possessed a shotgun in furtherance of drug trafficking because it was
unloaded and was not strategically located within reach to protect drugs that were found in the same room as the gun.
Id. at 263–64. We also stated in that case that the defendant could not have possessed a rifle in furtherance of drug
trafficking since there were no drugs in the same room where that firearm was found. Id. at 264. However, we
additionally decided that the defendant could have possessed a handgun in furtherance of drug trafficking due to the
fact that it was recovered in a jacket pocket in the closet that contained another jacket with illicit substances. Id.
Considering the type of weapon found near Simpson (a handgun), and the proximity between the gun and the heroin
found on Simpson’s person, Ray only confirms that it was rational for a jury to find Simpson was guilty of violating
§ 924(c).

- 16 -

A-16

(17 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 17

Case No. 20-1162, United States v. Simpson
“A claim that a sentence is substantively unreasonable is a claim that a sentence is too long
(if a defendant appeals) or too short (if the government appeals).” United States v. Rayyan,
885 F.3d 436, 442 (6th Cir. 2018). The analysis is not whether “the district court failed to consider
a factor or considered an inappropriate factor; that’s the job of procedural unreasonableness.” Id.
Instead, substantive reasonableness asks whether “the court placed too much weight on some of
the [18 U.S.C.] § 3553(a) factors and too little on others in sentencing the individual.” Id.; see
also United States v. Bailey, 931 F.3d 558, 562 (6th Cir. 2019). Further, “[t]he fact that [we] might
reasonably have concluded that a different sentence was appropriate is insufficient to justify
reversal of the district court.” Gall, 552 U.S. at 51.
Simpson argues that his sentence was both procedurally and substantively unreasonable
for the same reason: the district court failed to consider his willingness to plead guilty to the drug
charge. Regarding procedural reasonableness, Simpson is essentially claiming that the district
court erred by “failing to consider the § 3553(a) factors.” See id. When sentencing Simpson, the
district court considered the § 3553(a) factors before deciding that it was appropriate to vary
downward from 37 to 46 months’ imprisonment to 24 months’ imprisonment on counts two and
four. As part of its analysis, the district court acknowledged that Simpson did attempt to plead
guilty to the drug charge, but ultimately found that his concession did not have much of an effect
on Simpson’s sentence because he had no choice but to take responsibility for the drug crime due
to the evidence that would be presented at trial. Therefore, Simpson’s arguments pertaining to
procedural reasonableness fail because even though the district court did consider his willingness
to plead guilty to count two, the court did not believe his admission should have significantly
affected Simpson’s ultimate sentence. As for substantive reasonableness, the Court cannot find
that the district court did not adequately balance the § 3553(a) factors in a manner that resulted in

- 17 -

A-17

(18 of 19)

Case: 20-1162

Document: 39-2

Filed: 02/17/2021

Page: 18

Case No. 20-1162, United States v. Simpson
Simpson receiving too long of a sentence.

The district court fairly balanced all relevant

considerations, and after doing so, found that Simpson was entitled to a downward variance. The
district court did not abuse its discretion in weighing the § 3553(a) factors. Therefore, Simpson’s
substantive reasonableness arguments fail as well.
III.
For the foregoing reasons, we AFFIRM the district court’s judgment.

- 18 -

A-18

(19 of 19)

Case 1:19-cr-00137-RJJ ECF No. 136 filed 02/19/20 PageID.1163 Page 1 of 7
AO 245B (MIWD Rev. 12/16)- Judgment in a Criminal Case

UNITED STATES DISTRICT COURT
Western District of Michigan
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

-vsDEMARIO DESHAWN SIMPSON

Case Number: 1:19-CR-137-02
USM Number: 22594-040
Scott Graham
Defendant’s Attorney

THE DEFENDANT:

☐
☐
☒

pleaded guilty to Count(s) _______.
pleaded nolo contendere to Count(s) _______ , which was accepted by the court.
was found guilty on Counts 2, 4 and 7 of the Indictment after a plea of not guilty.

The defendant is adjudicated guilty of these offenses:
Title & Section

Offense Ended

Count

21 U.S.C. § 841(a), and (b)(1)(C)
Possession with Intent to Distribute Controlled Substances

May 14, 2019

2

18 U.S.C. §§ 922(g)(1), and 924(a)(2)
Felon in Possession of a Firearm

May 14, 2019

4

18 U.S.C. § 924(c)(1)(A)
Possession of a Firearm in Furtherance of Drug Trafficking

May 14, 2019

7

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
IT IS ORDERED that the defendant must notify the United States attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments
imposed by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and the
United States attorney of material changes in economic circumstances.
Date of Imposition of Sentence: February 18, 2020

DATED: February 19, 2020

/s/ Robert J. Jonker
ROBERT J. JONKER
CHIEF UNITED STATES DISTRICT JUDGE

A-19

Case 1:19-cr-00137-RJJ ECF No. 136 filed 02/19/20 PageID.1164 Page 2 of 7
AO 245B (MIWD Rev. 12/16)- Judgment in a Criminal Case
Judgment – Page 2
Defendant: DEMARIO DESHAWN SIMPSON
Case Number: 1:19-CR-137-02

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of eighty-four (84) months, consisting of twenty-four (24) months on each of Counts 2 and 4, to be
served concurrently; and sixty (60) months on Count 7, to be served consecutively to Counts 2 and 4.

☒

☒
☐

The court makes the following recommendations to the Bureau of Prisons:
That the defendant receive a substance abuse assessment and treatment, including the RDAP program.

-

That the defendant receive educational and vocational training opportunities.

-

That the defendant participate in the Life Connections program.

-

That the defendant be placed as close as possible to his family in West Michigan.

The defendant is remanded to the custody of the United States Marshal.
The defendant shall surrender to the United States Marshal for this district:

☐
☐
☐

-

at _______ on _______
as notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

☐
☐
☐

before 2:00 P.M. on _______
as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

United States Marshal
By:
Deputy United States Marshal

A-20

Case 1:19-cr-00137-RJJ ECF No. 136 filed 02/19/20 PageID.1165 Page 3 of 7
AO 245B (MIWD Rev. 12/16)- Judgment in a Criminal Case
Judgment – Page 3
Defendant: DEMARIO DESHAWN SIMPSON
Case Number: 1:19-CR-137-02

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of three (3)
years on each of Counts 2 and 4, and three (3) years on Count 7, all counts to run concurrently.
MANDATORY CONDITIONS
1. You must not commit another federal, state, or local crime.
2. You must not unlawfully possess a controlled substance.
3. You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within
15 days of release from imprisonment and at least two periodic drug tests thereafter, as determined by the
court.

☐ The above drug testing condition is suspended, based on the court’s determination that you pose
a low risk of future substance abuse. (check if applicable)
4. ☒ You must cooperate in the collection of DNA as directed by the probation officer.
5. ☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C.
§ 20901, et seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender
registration agency in the location where you reside, work, are a student, or were convicted of a qualifying
offense. (check if applicable)
6. ☐ You must participate in an approved program for domestic violence. (check if applicable)
7. ☐ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute
authorizing a sentence of restitution. (check if applicable) You must comply with the standard conditions that have been
adopted by this court as well as with any other conditions on the attached page.

A-21

Case 1:19-cr-00137-RJJ ECF No. 136 filed 02/19/20 PageID.1166 Page 4 of 7
AO 245B (MIWD Rev. 12/16)- Judgment in a Criminal Case
Judgment – Page 4
Defendant: DEMARIO DESHAWN SIMPSON
Case Number: 1:19-CR-137-02

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions
are imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum
tools needed by probation officers to keep informed, report to the court about, and bring about improvements in your conduct
and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours
of your release from imprisonment, unless the probation officer instructs you to report to a different probation office or
within a different time frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about
how and when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting
permission from the Court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the
change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify
the probation officer within 72 hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the
probation officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses
you from doing so. If you do not have full-time employment you must try to find full-time employment, unless the
probation officer excuses you from doing so. If you plan to change where you work or anything about your work (such
as your position or your job responsibilities), you must notify the probation officer at least 10 days before the change. If
notifying the probation officer at least 10 days in advance is not possible due to unanticipated circumstances, you must
notify the probation officer within 72 hours of becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone
has been convicted of a felony, you must not knowingly communicate or interact with that person without first getting
the permission of the probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e.,
anything that was designed, or was modified for the specific purpose of causing bodily injury or death to another person
such as nunchakus or tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or
informant without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation
officer may require you to notify the person about the risk and you must comply with that instruction. The probation
officer may contact the person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy
of this judgment containing these conditions. For further information regarding these conditions, see Overview of Probation
and Supervised Release Conditions, available at www.uscourts.gov.

Defendant’s Signature

Date

A-22

Case 1:19-cr-00137-RJJ ECF No. 136 filed 02/19/20 PageID.1167 Page 5 of 7
AO 245B (MIWD Rev. 12/16)- Judgment in a Criminal Case
Judgment – Page 5
Defendant: DEMARIO DESHAWN SIMPSON
Case Number: 1:19-CR-137-02

SPECIAL CONDITIONS OF SUPERVISION
1. You must participate in a program of testing and treatment of substance abuse, as directed by the probation officer,
and follow the rules and regulations of that program until such time as you are released from the program by the
probation officer and must pay at least a portion of the cost according to your ability, as determined by the probation
officer.
2. You must submit your person, property, house, residence, vehicle, papers, computers (as defined in 18 U.S.C. §
1030(e)(1)), other electronic communications or data storage devices or media, or office, to a search conducted by
a United States probation officer. Failure to submit to a search may be grounds for revocation of release. You
must warn any other occupants that the premises may be subject to searches pursuant to this condition.
The probation officer may conduct a search under this condition only when a reasonable suspicion exists that you
have violated a condition of supervision and that the areas to be searched contain evidence of this violation. Any
search must be conducted at a reasonable time and in a reasonable manner.
3. You must not use/possess any alcoholic beverages and shall not frequent any establishments whose primary
purpose is the sale/serving of alcohol.
4. You must provide the probation officer with access to any requested financial information and authorize the
release of any financial information. The probation office will share financial information with the U.S. Attorney’s
Office.

A-23

Case 1:19-cr-00137-RJJ ECF No. 136 filed 02/19/20 PageID.1168 Page 6 of 7
AO 245B (MIWD Rev. 12/16)- Judgment in a Criminal Case
Judgment – Page 6
Defendant: DEMARIO DESHAWN SIMPSON
Case Number: 1:19-CR-137-02

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the Schedule of Payments on the following
pages.
Assessment

Fine

Restitution

$300.00

$1,200.00

-0-

☐ The determination of restitution is deferred until _______. An Amended Judgment in a Criminal Case (AO
245C) will be entered after such a determination.

☐ The defendant must make restitution (including community restitution) to the following payees in the
amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment,
unless specified otherwise in the priority order or percentage payment column below. However, pursuant to 18
U.S.C. § 3664(I), all nonfederal victims must be paid before the United States is paid.
Name of Payee

Total Loss*

Restitution Ordered

TOTALS

$ 0.00

$ 0.00

Priority or Percentage

☐ Restitution amount ordered pursuant to plea agreement.
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or
fine is paid in full before the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f).
All of the payment options on Sheet 6 may be subject to penalties for delinquency and default, pursuant
to 18 U.S.C. § 3612(g).

☐ The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ the interest requirement is waived for the fine.
☐ the interest requirement is waived for the restitution.
☐ the interest requirement for the fine is modified as follows: __________
☐ the interest requirement for the restitution is modified as follows: __________

*

Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on
or after September 13, 1994, but before April 23, 1996.

A-24

Case 1:19-cr-00137-RJJ ECF No. 136 filed 02/19/20 PageID.1169 Page 7 of 7
AO 245B (MIWD Rev. 12/16)- Judgment in a Criminal Case
Judgment – Page 7
Defendant: DEMARIO DESHAWN SIMPSON
Case Number: 1:19-CR-137-02

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

☒ Lump sum payment of $300.00 due immediately, balance due
☐ not later than ________, or
☒ in accordance with ☐ C, ☐ D, ☐ E, or ☒ F below; or

B

☐ Payment to begin immediately (may be combined with C, D, or F below); or

C

☐ Payment in equal ________ installments of $________ over a period of ________, to commence ________
after the date of this judgment; or

D

☐ Payment in equal ________ installments of $________ over a period of ________, to commence ________
after release from imprisonment to a term of supervision; or

E

☐ Payment during the term of supervised release will commence within ________ after release from imprisonment.
The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

☒ Special instructions regarding the payment of criminal monetary penalties:

The restitution and/or fine is to be paid in minimum quarterly installments of $25.00 based on IFRP participation,
or minimum monthly installments of $20.00 based on UNICOR earnings, during the period of incarceration, to
commence 60 days after the date of this judgment. Any balance due upon commencement of supervision shall
be paid, during the term of supervision, in minimum monthly installments of $35.00 to commence 60 days after
release from imprisonment. The defendant shall apply all monies received from income tax refunds, lottery
winnings, judgments, and/or any other anticipated or unexpected financial gains to any outstanding courtordered financial obligations.

Unless the court has expressly ordered otherwise in the special instructions above, if this judgment imposes imprisonment,
payment of criminal monetary penalties is due during the period of imprisonment. All criminal monetary penalties, except
those payments made through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the
Clerk of the Court, 399 Federal Building, 110 Michigan N.W., Grand Rapids, MI 49503, unless otherwise directed by the
court, the probation officer, or the United States Attorney.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

☐ Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount and corresponding payee, if appropriate.

☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court cost(s):
☐ The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

A-25

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.464 Page 1 of 29

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

1
2
3

_______________________________________

4

UNITED STATES OF AMERICA,
Plaintiff,

5
6
7
8
9

vs.

DOCKET NO. 1:19-cr-137

DEMARIO DESHAWN SIMPSON,
Defendant.
________________________________________/

10
11

TRANSCRIPT OF FINAL PRETRIAL CONFERENCE

12

BEFORE THE HONORABLE ROBERT J. JONKER, CHIEF JUDGE

13

GRAND RAPIDS, MICHIGAN

14

September 24, 2019

15
16
17
18
19

Court Reporter:

Glenda Trexler
Official Court Reporter
United States District Court
685 Federal Building
110 Michigan Street, N.W.
Grand Rapids, Michigan 49503

20

Proceedings reported by stenotype, transcript produced by

21

computer-aided transcription.

22
23
24
25

A-26

1

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.465 Page 2 of 29

1

A P P E A R A N C E S:

2

FOR THE GOVERNMENT:

3
4
5
6
7
8
9
10
11
12
13
14
15

MS. ERIN KANE LANE
UNITED STATES ATTORNEY'S OFFICE
330 Ionia Avenue, N.W.
P.O. Box 208
Grand Rapids, Michigan 49501-0208
Phone: (616) 456-2404
Email: erin.lane@usdoj.gov
MR. STEPHEN P. BAKER
UNITED STATES ATTORNEY'S OFFICE
330 Ionia Avenue, NW
P.O. Box 208
Grand Rapids, MI 49501-0208
Phone: (616) 808-2056
Email: stephen.baker@usdoj.gov
FOR THE DEFENDANT:
MR. SCOTT GRAHAM
SCOTT GRAHAM, PLLC
1911 West Centre Avenue, Suite C
Portage, Michigan 49024
Phone: (269) 327-0585
Email: sgraham@scottgrahampllc.com
*

16

*

*

*

*

17

Grand Rapids, Michigan

18

September 24, 2019

19

4:17 P.M.
P R O C E E D I N G S

20
21

THE COURT:

All right.

We're here on the case of the

22

United States against Demario Simpson, 1:19-cr-137, for a final

23

pretrial conference.

24

Let's start with appearances, please.

25

MS. LANE:

Good afternoon, Your Honor, Erin Lane on

A-27

2

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.466 Page 3 of 29

1

behalf of the United States.

2

is AUSA Steve Baker and ATF Special Agent Ted Westra.

3

THE COURT:

4

MR. GRAHAM:

5

Seated with me at counsel table

Thank you.
Good afternoon, Your Honor, Scott Graham

on behalf of Mr. Simpson who is also present.

6

THE COURT:

All right.

Thank you.

7

We're here for final pretrial conference, and the

8

thing I really wanted to start with is a little discussion of

9

the issue that I framed.

I saw the defense response.

I don't

10

know if the government responded -- I didn't see anything -- on

11

potentially having the defendant plead to the drug charge

12

straight up and then go to trial on the two firearms offenses.

13

And I had concerns about that for reasons I alluded to and

14

referenced in earlier cases.

15

that are going to be tried in that scenario, including

16

possession of a firearm in furtherance of a drug-trafficking

17

crime, it's going to overlap, it seems to me, to some extent

18

with the proofs on this controlled substances offense.

19

haven't had a chance to completely read the defense brief

20

challenging the government's proffered expert testimony, but I

21

saw a reference in there suggesting that maybe the defense view

22

is, "Well, if he pleads to the drug charge, we can't have any

23

evidence of the drugs."

24

know, so we can talk about that.

25

have a standard 924(c) charge, part of what we instruct the

Particularly where the things

And I just think that's wrong.

A-28

And I

You

But it seems to me when we

3

4

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.467 Page 4 of 29

1

jury on in terms of deciding whether it was possession, first

2

of all, but then if it was in furtherance of a drug-trafficking

3

crime, is the circumstances under which the firearm and the

4

defendant were connected, if the jury finds they were

5

connected.

6

factors is the proximity to drugs or not.

7

that's why the defense was considering that option or may still

8

be considering it, but I want to hash that out.

9

that's the basis for it, I'm not so sure I agree with where the

And I know I've given instructions where one of the
So I'm not sure if

Because if

10

defense would be with the evidentiary restrictions.

11

that's the case, maybe the defense doesn't want to do that

12

anyway.

13

And if

That's kind of one overall point.
Second, a related point maybe, I don't understand

14

what the defense gets out of a formal guilty plea with a

15

colloquy that could then be used against Mr. Simpson.

16

at least the statements he makes in support of an accepted plea

17

would normally be admissible.

18

doesn't the defense get the same thing by just standing up in

19

opening and saying "We're not contesting the drug charge"?

20

can do that, and I gave an example in my order of a case where

21

that was done by the defense.

22

Why would you do that?

I think

Why

You

So that was a concern.

And then, I guess -- well, that's probably a place --

23

oh, the last thing was, when I read the trial brief and things

24

and the government's and the parties' joint submissions on

25

instructions, it looked like everything was contested again,

A-29

5

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.468 Page 5 of 29

1

and I didn't know if that was because the defense is no longer

2

interested in evaluating that sort of hybrid approach or

3

whether the parties were just saying, "Well, let's be ready in

4

case the judge doesn't let us go that route for everything."

5

So let me understand, I guess, first of all, where

6

you are, Mr. Graham, at the defense, and then I'll hear where

7

the government is and we'll go from there.

8
9
10

MR. GRAHAM:

Thank you, Your Honor.

First, the

really easy one is I think the instructions were prepared the
way they were just in case you said no plea.

11

THE COURT:

12

MR. GRAHAM:

All right.
That was all.

We realized that if the

13

plea was offered, there would have to be some modification to

14

the instructions.

15

think pretty straightforward.

16

THE COURT:

17

MR. GRAHAM:

I don't think a difficult modification.

I

All right.
On the question of whether Mr. Simpson

18

should be allowed to plead guilty to the drug charge and the

19

reasons why, if I was not clear about what I think the

20

government can do, let me try to be clearer right now.

21

I've never taken the position or never meant to take

22

the position that if he pled guilty that there could be no

23

evidence whatsoever regarding drugs or the circumstances.

24

think that's something that, you know, would be -- you'd have

25

to take a look at.

I

The government would have to indicate where

A-30

6

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.469 Page 6 of 29

1

it's going.

It doesn't make sense to me that they retry the

2

entire case.

3

not saying he'd plead guilty and there could be no evidence

4

from a witness that he was found with drugs or admitted that he

5

had drugs, because there are admissions that are part of the

6

government's listed proof.

But I'm not saying that they can't do that.

I'm

This is purely a tactical approach to the case, and

7
8

it, frankly, comes from, you know, having tried a number of

9

cases where the -- well, it's generally drugs.

The drugs are

10

not the subject of a plea and then getting into the awkward --

11

it just seems more awkward when that issue is hanging at trial.

12

Even if I stand up in opening and say -- even if I stand up in

13

jury selection and somehow telegraph that there's going to be

14

no dispute regarding the drugs.
It seems to me that -- and, frankly, there is a

15
16

question.

17

doesn't want to admit what he didn't do.

18

think, approach to the case.

19

Whether or not it, you know, dovetails with the --

20

He comes in and he admits what he did, but he

THE COURT:

That's a tactical, I

That's what my thinking was.

How does the -- if that's the tactical

21

approach -- and I get it, that's sort of the tactic that the

22

lawyer used in the one case I cited -- why don't you get the

23

same tactical advantage by standing up at trial and saying,

24

"Hey, you know, we're not going to contest the drug case, but

25

we are contesting the firearms case."

A-31

I mean, why is that

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.470 Page 7 of 29

1

different than having him swear under oath in advance and be

2

adjudicated guilty of a drug offense?

3

thing I don't even know, if he's adjudicated of an offense

4

before trial and he's convicted later at trial of felon in

5

possession, is the drug offense a predicate for an ACCA because

6

it happened before trial?

7

rather not deal with.

8

he's convicted at the same time of the firearms offense, but I

9

don't know if it is if we did it today and a week later he's

Which, I mean, the other

I mean, those are things I would

I know it wouldn't be a predicate if

10

convicted of a firearms offense.

11

worry about.

12

functionally so similar as to not tell a difference anyway.

13

So those are the things I

Particularly if the proofs are going to be

MR. GRAHAM:

Well, we've evaluated -- I understand

14

the Court's point.

15

evaluated the question of whether or not there is an ACCA

16

predicate issue and we're comfortable with that point.

17

realize it might lead to other issues.

18

I just wanted you to know that we've

THE COURT:

I

And --

Just so I'm clear, you're comfortable he

19

won't be ACCA-qualified, but what about if he's convicted by

20

guilty plea of a drug offense today and down the road he's

21

convicted of a firearm offense, you're saying that that

22

wouldn't be -- the drug conviction wouldn't be a predicate?

23

MR. GRAHAM:

24

THE COURT:

25

MR. GRAHAM:

I don't believe it would be a predicate.
I see.
I think it would be part of the same

A-32

7

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.471 Page 8 of 29

1

transaction.

In fact, there's another question here, and that

2

is, that gets to acceptance of responsibility.

3

for example, the worst-case scenario for Mr. Simpson where he

4

pleads guilty or is convicted of the drug offense, if he were

5

to come in and plead, I think he would be entitled to the

6

two-level acceptance reduction on that.

7

purpose of a guideline range, I think it would be exactly the

8

same for that count after a trial.
THE COURT:

9

That may be.

In a case --

And at least for the

The guideline issue came up

10

in the other case too, and I think I dealt with it on a

11

variance at that point.

12

worried about the guidelines, and that's a fair question.

13

The other thing, though, just sticking with the

But I understand why you might be

14

tactics, I guess, one of the elements of one of the charges

15

that would be going to the jury for sure, 924(c), is the

16

drug-trafficking crime.

17

present an opportunity to the jury to say, you know, here is

18

what we admit and here is what we don't.

19

don't worry about that element because we're not contesting it.

20

You know, all we're contesting is the possession of the

21

firearm.

22

had it, let alone in furtherance of that crime.

23

trying to grasp, I guess, what tangibly you're getting out of

24

it considering all the things I'm worried about, I guess, of,

25

you know, trying to anticipate all the things that could go

So it's not like it's even hard to

You know, you'd say

He never had it or the government hasn't proved he

A-33

I mean, I'm

8

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.472 Page 9 of 29

1

wrong that I haven't thought of by having a defendant who is

2

otherwise protected by the presumption of innocence, you know,

3

partly give that up and partly not.
MR. GRAHAM:

4

That's what concerns me.

In all candor, I think there's a certain

5

component that it's just hard to go to trial and admit, you

6

know, you should lose part of it.

7

aside.

8

you've seen the impact of that on juries -- and I know you

9

probably have -- it's something that here caused me to make a

I mean, that's just an

But that maybe doesn't impact.

So the thinking is when

10

decision that tactically we'd want to go forward with the plea.

11

But -- and I also understand that this is going to be

12

a simple and I think a very short trial.

13

we're talking about four government witnesses.

14

the way things normally go for the way you run the trial docket

15

or the trial day, that first day, I mean, if we have a jury

16

before the first break, you know, we're going to be plugging

17

into witnesses.

18

the jury.

19

understand when I say we admit Count 2, we're not contesting

20

Count 2, or whatever words I would choose.

21

it would be my preference still, thinking that any problems can

22

be avoided, it would be my preference to offer the plea of

23

guilty before.

24
25

You know, I think
And, you know,

So it's going to be simple there as well for

And maybe that makes it easier for them to

But on the whole,

And maybe if -- you know, the other worry that I have
is in regard to the government's proofs, if the government's

A-34

9

10

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.473 Page 10 of 29

1

proofs regarding their noticed expert, the statement that we're

2

really contesting here, as really being the rub, is the

3

statement that this expert is going to say that drug dealers

4

have determined that the police can't protect them, so they

5

carry guns themselves.

6

on that particular motion, but that's certainly really the

7

piece of evidence that we really contest the most, although we

8

think he's not qualified to begin with.

9

rub on that.

And I don't want to get into argument

But that's the real

And if that opens the door to more proof of that

10

type from the government, then certainly tactically I feel very

11

strongly that we would like to tender the plea.

12

have any impact on what evidence is going to be offered on

13

that, then there's probably no benefit to us I would have to

14

admit.

If it doesn't

So I know I haven't given you a real probably clear

15
16

and good answer, but it's a somewhat difficult question.

17

do believe that the problems could be -- could be dealt with if

18

he's allowed to offer the plea.

19

request, but I recognize the Court's concerns.

So it still would be our

20

THE COURT:

21

Let me hear from Ms. Lane on the government's

22
23

Okay.

But I

Thanks.

position.
MS. LANE:

Thank you, Your Honor.

Just to verify,

24

the documents that were filed with the Court do include all

25

counts just in case there was not a plea that was accepted by

A-35

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.474 Page 11 of 29

1

the Court today.

2

that might come in trial.

11

So we were anticipating preparation for all

Also, the government's concern, not wanting to get

3
4

involved in defense strategy, of course, in whether the

5

defendant chooses to plead or not in this case, our real area

6

of focus is, of course, evidentiary restrictions.
As the Court has noted, an element of Count 7, the

7
8

possession of a firearm in furtherance of drug trafficking,

9

itself contains a reference to Count 2, the possession with

10

intent to distribute heroin.

11

is the Count 2 itself.

12

ability to put on proofs to prove all the elements contained in

13

Count 7.

14

distribute heroin contained in Count 2.

15

And so an element of that offense

And so the government would request the

And specifically the possession with the intent to

In fact, of course, one of the elements of the

16

government's theory is that the defendant here possessed a

17

firearm because he was distributing a controlled substance.

18

And so in that way the government would like to ensure that

19

we're able to put in proofs, either -- if the plea doesn't go

20

through today to fully explain our case at trial.

21

THE COURT:

So let's say it does go through on the

22

whatever count it is -- 2, I guess -- in your view, what, if

23

any, proofs are off the table for you at trial?

24

try the same proofs that you'd otherwise have if all three were

25

in the case?

A-36

Or do you just

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.475 Page 12 of 29

1

MS. LANE:

12

I think that Mr. Graham is correct in that

2

this is a very straightforward case, and so I don't necessarily

3

see any proofs as being off the table because the proofs are

4

fairly straightforward.

5

the defendant possessed a controlled substance with the

6

intention to distribute it in order to fully prove Count 7.

7

And also we'd need to specifically prove that the defendant

8

possessed -- or at least make reference to the defendant's plea

9

of guilt to Count 2 because Count 2 itself is named in Count 7

We would need to be able to prove that

10

of the Indictment.

11

able to put on and needs to be able to put on evidence to fully

12

prove all of the elements in 7 that relate back to Count 2.

13

And so I think that the government would be

THE COURT:

All right.

And does the government have

14

a position one way or the other on whether a person in

15

Mr. Simpson's position can insist on the ability to tender a

16

plea if he wants to?

17

MS. LANE:

The government has completed research on

18

this issue, preliminary research, and found support for the

19

defendant's position in the Seventh Circuit and in the

20

Tenth Circuit, but specific to this case the government doesn't

21

take a position, doesn't want to get involved in the defense

22

strategy necessarily.

23
24
25

THE COURT:

All right.

Anything else on this issue?

And then we can go on.
MR. GRAHAM:

Not from me, Your Honor.

A-37

13

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.476 Page 13 of 29

1

THE COURT:

Okay.

2

MS. LANE:

Nothing.

3

THE COURT:

Help me get a better sense of what the

4

parties do anticipate by way of proof.

5

with you, Ms. Lane.

6

the proofs changing much either way from your perspective, so

7

give me an outline of what you expect.

8

much time you'll need.

9

MS. LANE:

And we'll just start

It sounds like you don't really anticipate

And in particular how

Your Honor, the one proof that we would

10

need to put on if the defendant wasn't able to plead to Count 2

11

today, of course, would be a lab technician to prove that the

12

substance that the defendant possessed on the date in the

13

Indictment, date and time -- or date named in the Indictment

14

was in fact heroin as alleged in the Indictment.

15
16

THE COURT:

MS. LANE:

18

THE COURT:

20
21
22
23

Except if the defense

stipulates to all of that, you wouldn't need it.

17

19

All right.

Potentially, yes, Your Honor.
All right.

Okay.

So how much time?

many witnesses?
MS. LANE:

So at this point the government

anticipates four total witnesses.
THE COURT:

And that includes the expert that the

defense is challenging?

24

MS. LANE:

Correct.

25

THE COURT:

Okay.

A-38

How

14

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.477 Page 14 of 29

1
2

MS. LANE:

And we would have five total witnesses if

we needed to call a lab technician.

3

THE COURT:

4

MS. LANE:

Okay.
We have approximately 13 exhibits.

And we

5

anticipate that the trial might be able to be completed in one

6

day but possibly could go into a second day.

7

THE COURT:

All right.

Okay.

And other than the

8

potential lab tech and the expert that the defense is

9

challenging, Agent Pond, they would be fact witnesses?

Other

10

than Agent Pond and potentially the lab tech they would be fact

11

witnesses?

12
13

MS. LANE:

We are calling three different police

officers --

14

THE COURT:

15

MS. LANE:

16

THE COURT:

17

MS. LANE:

18

opinion testimony potentially.

19

technician who would also be a fact expert.

20

THE COURT:

21

MS. LANE:

22

THE COURT:

I see.
-- who will provide factual testimony.
Okay.
And then the expert who will provide
And then possibly the lab

All right.

Thank you.

Thank you.
From your perspective, Mr. Graham, it's

23

probably too early to say whether the defense plans a case, but

24

if you do have one, how long do you think it extends it?

25

does the decision depend one way or another on whether or not

A-39

And

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.478 Page 15 of 29

1
2

15

Mr. Simpson pleads to the drug count?
MR. GRAHAM:

The length of the defense case would not

3

change based upon a plea or no plea.

4

was going to be a defense case, it probably would take a very

5

short amount of time.

6

And I don't -- you know, recognizing -- I know the Court

7

recognizes things can happen, but very short, if any, case from

8

the defense is anticipated in regard to that.

9

going to be a need for a lab technician unless the government

10

I believe that if there

Less than an hour.

Maybe a half-hour.

And there's not

wants to call one despite our willingness to stipulate.

11

THE COURT:

Okay.

Thank you.

12

While we're talking about the trial, I know the

13

defense filed a motion on the special agent.

14

until I was on the bench with other things, so all I've had a

15

chance to do is skim through it.

16
17
18

I didn't get that

Do you want to highlight your position on that,
Mr. Graham, and we'll go from there.
MR. GRAHAM:

Well, Your Honor, just to highlight what

19

our position is, because we think we've thoroughly discussed

20

it, so when the Court has a chance to digest.

21

the late filing, but the notice -- the notice of Agent Pond was

22

very recent.

23

I'm sorry for

In the first place, we don't think that he is

24

qualified by experience in terms of what's been proffered to

25

offer an opinion.

We're not sure how much time he's spent on

A-40

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.479 Page 16 of 29

1

the street.

2

in law enforcement creating experience that would allow him to

3

testify.

16

We're not sure how much time he has been immersed

4

We're also very concerned, Your Honor, about whether

5

or not Agent Pond would offer an opinion on the ultimate fact.

6

In this case where we have one gun in dispute and one person in

7

dispute, Agent Pond wants to testify apparently that as a

8

general rule, without knowing Mr. Simpson or his case, that

9

people who sell drugs possess guns because they don't trust, I

10

guess, the police to be able to protect them or they'd need the

11

guns for protection.
Here I don't know how a jury escapes the fact that

12
13

Agent Pond is talking about Mr. Simpson.

14

general.

15

Everything is boiled down, is distilled so much that it seems

16

to me that it's very clear he is offering testimony on the

17

ultimate question for the jury to decide.

18

He's not talking in

He's talking about this set of facts and this person.

And then finally, if he's going to say a person who

19

sells drugs might be more likely to have a weapon, that just

20

seems to us to be clearly within the understanding of the jury.

21

I don't think there's anything difficult about what an agent

22

would say, any background needed.

23

for protection, there's some evidence of that, or not.

24

danger here is extreme.

25

Either the person has a gun
So the

The prejudice would be extreme.

And I guess, Your Honor, in terms of the authority we

A-41

17

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.480 Page 17 of 29

1

rely upon, we think that the Sixth Circuit's decision in Rios,

2

which was a case involving the Holland Latin Kings that, you

3

know, was of some note some time ago, where the Court talked

4

about that very thing, about a law enforcement agent talking

5

beyond -- offering opinions that were inappropriate -- in that

6

case harmless based on the Court's decision -- but offering

7

opinions that really were on items that were within the jury's

8

ability to understand.

9

a gang, in a street gang, use what are referred to in that case

The question like do people involved in

10

as "nation guns"?

Here it seems to us that the instruction

11

from Rios covers exactly what we're talking about here.

12

here we in fact think there's a lot more danger because, again,

13

everything is so distilled.

14

who possesses drugs would do in regard to a weapon and one

15

person sitting here charged.

16

you will, of our position, Your Honor.

17

THE COURT:

18

MS. LANE:

Okay.

And

One statement about what someone

So those are the highlights, if

Ms. Lane.

Thank you, Your Honor.

I'll

19

similarly provide the Court with highlights of a response.

20

also had the chance to skim the motion, and I'm happy to

21

provide further briefing if the Court needs or requests.

22

I

But in my first-blush reaction to the motion and in

23

my research following that motion, I'll note that the

24

Sixth Circuit has permitted experienced drug investigators to

25

testify as narcotics experts regarding aspects of drug

A-42

18

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.481 Page 18 of 29

1

transactions.

2

unlikely to be within the knowledge of an average juror.

3

have a string cite of cases that support this proposition in

4

the Sixth Circuit.

5

United States versus List, 200 F. App'x 535, Sixth Circuit

6

(2006), and United States versus Swafford, 385 F.3d. 1026,

7

Sixth Circuit (2004).

And I

A few of most interest are the

In addition, I noted that the Sixth Circuit has long

8
9

And specifically because this information is

held that expert testimony on specifically the role of

10

firearms, the role that firearms play in drug trafficking, is

11

relevant, admissible evidence.

12

Swafford, pin cite 1030.

13

cite 545.

The court held this in

The Court also held this in List, pin

The Sixth Circuit has also noted that most courts

14
15

have taken a very tolerant view of the admissibility of expert

16

testimony which links the presence of a firearm to

17

drug-trafficking activities.

18

Swafford and in so doing was quoting the United States versus

19

Thomas, 99 F. App'x 665, Sixth Circuit (2004), which was citing

20

United States versus Allen, 269 F.3d. 842, Seventh Circuit

21

(2001).

22

The Court stated this again in

And in the United States versus White the

23

Sixth Circuit found that testimony regarding tools of the

24

trade, firearms, has become utterly routine in

25

drug-distribution cases.

So that is my reaction to the

A-43

19

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.482 Page 19 of 29

1

government's motion and why I think that the Court should deny

2

the defense motion to limit or deny the expert testimony

3

specifically in this case.

4

THE COURT:

5

MS. LANE:

6

THE COURT:

Okay.
Thank you.
Thank you.

Are there other -- I have one

7

thing I need to tell you about, which is an unusual scheduling

8

contingency.

9

think we'll be able to work around it.

10
11

Fortunately, given that it's a short trial, I
So let me put that on

the table.
I got summoned to jury duty in Kent County Circuit

12

Court the week of October 7.

13

4th after hours to see if they need me Monday.

14

interfere with this trial.

15

had to go, I guess, within the last few years -- on the first

16

day I -- you know, I could determine whether I was going to be

17

in service or not, and I didn't get drawn.

18

So I have to call on Friday the
That won't

The last time I went -- and I've

If that happens, you'll be able to come here on

19

Tuesday and we'd go ahead just as scheduled.

20

have to be there, then I'm going to have to keep you

21

up-to-date, just like me, on when we could actually start.

22

if we have only that one or maybe two days, hopefully we'll be

23

able to fold it in and work around whatever happens to me in

24

jury duty.

25

If I, you know,

This, of course, will be the time that I'll get

A-44

But

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.483 Page 20 of 29

20

1

picked because it will be really inconvenient.

But I have to

2

think one side or the other is not going to want a judge on the

3

jury, but you never know.

4

As we learn things, we'll keep you up-to-date.

5

that we'll get to start on time, but please recognize we might

6

have some juggling that week.

So I want you to be aware of that.
So plan for now

Are there other things from the parties' perspective?

7
8

And then we can talk about the thing we started with first and

9

I'll give you a decision.
MS. LANE:

10

Anything else from the government?

The only issue that does come to mind when

11

revisiting the first issue we discussed this afternoon is the

12

potential appellate risk of not allowing the defendant to go

13

forward today on his wish to plead guilty to Count 2 and then

14

if he is convicted of Count 2 at trial he may lose out on

15

guideline acceptance points and that could result in an

16

appellate risk, and I did want to note that for the Court's

17

consideration.

18

THE COURT:

19

MR. GRAHAM:

20

THE COURT:

All right.

Anything else?

No, Your Honor.
All right.

Thank you.

Well, thank you to the

21

parties.

As I said in my order asking you to be prepared to

22

talk about this, I've had it come up in two ways.

23

that's not much.

24

anticipating, more like this group, what I'm calling a hybrid

25

approach, "Hey, what if I plead to some of these and not others

In 12 years

The one way which the parties were

A-45

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.484 Page 21 of 29

21

1

and I plead straight up to the ones that I want to plead to?"

2

And ultimately we went through some hearings on it and I didn't

3

have to make a final decision because the parties structured a

4

deal that avoided it.

5

where for tactical reasons the defense at trial wanted not to

6

contest what was in that case a marijuana grow operation charge

7

but did want to focus on the firearms offenses and did that.

8

And nobody asked me in advance for the ability to do a pretrial

9

plea on one thing.

And then the other being a situation

You know, I've looked at the authority too.

10

There

11

isn't a lot of it.

Probably because it doesn't come up that

12

often.

13

right to plead guilty.

14

go to trial.

15

have indicated, in other circuits to suggest that if a

16

defendant wants to come forward and does come forward and can

17

give a proper factual basis and all the rest, a straight-up

18

plea ought to be accepted and the court at the trial level may

19

not have discretion not to do it.

20

the strongest statements appear in cases like the Tenth Circuit

21

case where I think it's really dicta, United States against

22

Martin, for example, because there wasn't a factual basis

23

there.

24

right to go to trial.

25

forceful and unequivocal from the circuit that says you also

I would say, 1, I don't think there's a constitutional
I think your constitutional right is to

There is, though, some authority, as both sides

That said, you know, some of

And part of me thinks everybody has a constitutional
And at least in the absence of something

A-46

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.485 Page 22 of 29

1

have a right to plead guilty, it seems odd to me that I should

2

be deprived of discretion, I guess, to reject it and say,

3

"Look, we're going to go to trial on the case."

4

22

I might think, well, you know, if we're in a

5

situation where the charge the defendant wants to plead to is

6

totally unrelated to the charges that are going to trial, so

7

let's say there's a child pornography charge and then drug

8

possession with the intent to distribute and the person is

9

thinking, "Look, you know, I'm going to take child pornography

10

off the table because nobody is going to be listening to what I

11

have to say about the drug charge," I would be tempted in that

12

case to say maybe.

13

constitutional right, maybe the rule would be read or could be

14

read or interpreted to say the trial court ought to allow the

15

defendant the opportunity to take that potentially inflammatory

16

prejudicial charge out of play.

17

I see the case shaping up to be pretty much the same case

18

regardless of whether Count 2 is pled out in advance.

19

that's because I think the proofs regarding drug distribution,

20

drug possession, and the quantities and the place found and all

21

the rest is germane to the jury's, the fact-finder's decision

22

on whether or not if they find Mr. Simpson possessed a firearm

23

whether he was possessing it in furtherance of the

24

drug-trafficking crime.

25

is actually one of the elements that the government has to

You know, even if there isn't a

But here I just don't see it.

And

And in fact the drug-trafficking crime

A-47

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.486 Page 23 of 29

23

1

prove.

2

should have the right pretrial to admit under oath in a plea

3

colloquy, give up the right -- or the presumption of innocence

4

on something that the government has got the burden to prove on

5

a charge that everybody is going to trial on.

6

wrong.

7

So it goes against my grain to say that a defendant

It just feels

And, yes, maybe there are appellate risks.

There's

8

probably appellate risks here either way.

But I think if I

9

analyze appellate risk and I think the defendant is going to

10

get a fair trial, a constitutional -- a constitutionally

11

protected right to trial with a presumption of innocence and

12

all that goes with it, it's hard for me to see any prejudice,

13

at least on this record.

14

where the charge he wants to plead to is unrelated.

15

think it's, you know, intertwined completely with what's still

16

got to be tried.

17

think the Court does have discretion and should have discretion

18

to say we'll go to trial on the whole natural case unless a

19

defendant wants to give up the presumption completely.

20

course, he doesn't want to do that and for good reason.

21

don't see how the defendant is harmed in that to the extent

22

there's any tactical value in showing the jury you're ready to

23

admit what you are responsible for in your view and simply

24

contest what you're not.

25

Again, we're not talking about a case
In fact, I

So under those circumstances, you know, I

And, of
I

I think there's multiple ways to deal with that, from

A-48

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.487 Page 24 of 29

1

Mr. Graham's standing up in opening, from the parties crafting

2

additional stipulations that can be submitted to the jury so

3

that it's clear to everybody what's being contested and what's

4

not being contested.

5

things weigh on the eventual questions of acceptance of

6

responsibility or other guideline issues as well if we get to

7

that point in the case and if there are convictions.

8

think whatever tactical value there potentially could be is so

9

limited that I really can't see daylight between the tactical

24

And by the same token those kinds of

So I

10

value of admitting it in some way at trial or trying to go

11

forward with a plea colloquy.

12

the unknown in going forward with the plea colloquy.

13

going to be statements that Mr. Simpson makes in support of the

14

plea colloquy.

15

suppose something comes up that he doesn't expect in the course

16

of the plea colloquy.

17

that's presumptively admissible proof.

18

don't have to worry about if Mr. Simpson doesn't have to say

19

things under oath today.

20

And I do see risks, the risks of
There are

Although I know Mr. Graham will be vigilant,

If the plea is accepted, you know,
It's something that we

It may well be that there's not a realistic risk of

21

the conviction today on a drug offense being a predicate

22

offense for career offender or ACCA or anything else, but

23

potentially things would be different than if all of the

24

convictions happened in front of the same fact-finder on the

25

same -- the same verdict form.

A-49

I just can't think of all the

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.488 Page 25 of 29

1

permutations of what might go wrong, which is why I feel much

2

more comfortable submitting what I'm calling the whole natural

3

case to a single fact-finder, namely, the jury.

25

So under those circumstances I am going to go ahead

4
5

and prepare the case for trial on all three charges.

We'll

6

leave it to the parties to decide what, if anything, they want

7

to agree on.

8

whether it's the whole element of Count 2, the drug-trafficking

9

crime, any of that.

Whether it's the quantity and type of drugs,

10

parties.

11

of managing that.

Or nothing.

We'll let that be up to the

I think those are the people who have the best view

And then with respect to Special Agent Pond, I'll

12
13

give the government a few days to submit whatever you want to

14

on that.

15

because I have another trial starting next week, so it would be

16

nice to have it by the weekend.

If you can do it by the weekend, that's great,

17

I'll tell you for planning purposes for both sides,

18

my instinct is to say that the special agent probably will be

19

allowed to testify.

20

of course, will have to be a view of the Court, but I've looked

21

at least generally at what was attached to the defense brief in

22

the government's statement of his general credentials, and

23

although Kabul is on there, so is Kalamazoo, St. Louis, and

24

14 years of work for the DEA.

25

Mr. Graham raises can and are properly addressed on cross as

The credentialing, whether he's qualified,

I think the other issues that

A-50

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.489 Page 26 of 29

1

opposed to admissibility or not, but that's my instinct at the

2

moment.

26

3

I agree that particularly where you've got, you know,

4

the concentrated focus on a single firearm, a single defendant,

5

there's the risk that what the witness has to say in general,

6

not based on experience in this case, could be translated or

7

heard as testimony on the ultimate issue.

8

Defendant Simpson did it.

9

on if I allow the special agent to testify.

You know,

I think that's my job to be vigilant
Make sure the jury

10

instructions, both written and the ones I give orally, make it

11

clear that the testimony is strictly a matter of a general

12

purview of the witness to the extent the jury wants to credit

13

it and nothing else.

14

can handle that, and, you know, have ordinarily handled it in

15

other cases, though I will wait to make a final call on that

16

until I go back and read Rios and any of the other authority

17

that the defense has cited and see what the government has to

18

say.

19

expect the most likely result to be that the special agent will

20

be allowed to testify.

21
22
23
24
25

I think, though, that the instructions

But for planning purposes, I would want the parties to

On that the only other question I had is why it was
submitted for restricted-access filing.
MR. GRAHAM:

I think -- I'm not sure, but I withdraw

the request for restricted-access filing.
THE COURT:

Okay.

So let's just do it on the public

A-51

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.490 Page 27 of 29

1

record, because I didn't see anything in there that wasn't

2

already a matter of public record.

3

Are there other things that would be helpful to the

4

parties in preparation?

5

ready to go yet or if you're still finalizing them.

6

MS. LANE:

7

what to anticipate?

8
9

27

I don't know if you have exhibits

Your Honor, you'd just like a summary of

THE COURT:

No, I'm just wondering -- I don't know if

there's anything else.

Sometimes if the parties have the

10

exhibit book ready, the defense already knows they are going to

11

be challenging the following three or not.

12

save time later is what I'm looking for.

13

MS. LANE:

Anything that would

I've shared with the defense the majority

14

of our exhibits just this afternoon.

15

challenges, but maybe I'll let the defense speak to that.

16

MR. GRAHAM:

I don't anticipate any

Your Honor, I'm not anticipating

17

anything right now.

18

exhibits will be admitted without objection.

19

look at that to try to expedite.

20

right now.

21

And also I think that probably most of the
So we'll take a

But I'm not aware of one

The only other thing I would note, just for the

22

purpose of noting it, is we may have an exhibit that would be a

23

drawing, a sketch, if you will, of the scene.

24

happened in one yard.

25

yards, things of that sort.

Everything

And, you know, it's the usual fences,
So we'll attempt to reach

A-52

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.491 Page 28 of 29

1

agreement on that.

2

could rule on right now that would --

3

But I'm not aware of anything that you

THE COURT:

All right.

Okay.

Yeah, I did, I read

4

the government's trial brief earlier, so I gather the defense

5

will be saying he never possessed it, that the government

6

doesn't have proof beyond a reasonable doubt that he possessed

7

it, let alone in furtherance of the drug trafficking.

8

MR. GRAHAM:

9

THE COURT:

10

Yes, Your Honor.
Okay.

All right.

MS. LANE:

12

THE COURT:

13

MR. GRAHAM:

14

THE COURT:

No, Your Honor.

Thank you.

Mr. Graham?
No, Your Honor.
Okay.

jury duty.

It will be interesting.

16

will go with minimum disruption here.

17

MR. GRAHAM:

18

THE CLERK:

Thank you.

I'll keep you up-to-date on my own

15

20

Anything else from the

government that would be useful?

11

19

28

And hopefully everything
Thank you.

Thank you.
Court is adjourned.

(Proceeding concluded at 5:00 PM)
*

*

*

21
22
23
24
25

A-53

*

*

Case 1:19-cr-00137-RJJ ECF No. 96 filed 10/10/19 PageID.492 Page 29 of 29

I certify that the foregoing is a correct transcript

1
2

from the record of proceedings in the above-entitled matter.
I further certify that the transcript fees and format

3
4

comply with those prescribed by the court and the Judicial

5

Conference of the United States.

6
7

Date:

October 10, 2019

8
9
10

29

/s/ Glenda Trexler
__________________________________
Glenda Trexler, CSR-1436, RPR, CRR

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

A-54

